DECLARATION OF SERVICE BY OVERNIGHT COURIER
Case Name:

Mountainlands Conservancy, et al. v. California Coastal Commission, et al.

Court Case No.: 20-821
I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member’s direction this service is made. I am 18 years of age or
older and not a party to this matter; my business address is: 300 South Spring Street, Suite 1702,
Los Angeles, CA 90013.
On January 13, 2021, I served the attached Respondent California Coastal Commission
Waiver by placing a true copy thereof enclosed in a sealed envelope with the FedEx addressed
as follows:
Dawn Cushman
Bradley & Gmelich LLP
700 North Brand Boulevard, 10th Floor
Glendale, CA 91203-1202
T: (818) 243-5200
Scott Kuhn
Assistant County Counsel
Office of the Los Angeles County Counsel
500 W. Temple Street, Suite 653
Los Angeles, CA 90012
T: (213) 974-1852

FedEx Tracking No.:
772615435106

FedEx Tracking No.:
772615620750

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on January
13, 2021, at Los Angeles, California.
Stephanie Mezquita
Declarant

Signature

